              Audit Report



  Disabled Individuals with Mental
Impairments Acting as Representative
               Payees




      A-07-12-21265 | September 2013
MEMORANDUM


Date:      September 23, 2013                                               Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Disabled Individuals with Mental Impairments Acting as Representative Payees
           (A-07-12-21265)

           The attached final report presents the results of our audit. Our objective was to identify
           representative payees who were receiving Disability Insurance benefits or Supplemental Security
           Income because of a mental impairment who may have been incapable of performing their
           representative payee responsibilities.

           Please provide within 60 days a corrective action plan that addresses each recommendation. If
           you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

           Attachment
Disabled Individuals with Mental Impairments Acting as
Representative Payees
A-07-12-21265
September 2013                                                             Office of Audit Report Summary

Objective                                 Our Findings

To identify representative payees who     Our review of 105 representative payees receiving DI or SSI
were receiving Disability Insurance       because of a mental impairment identified 22 who may have been
(DI) or Supplemental Security Income      incapable of managing or directing the management of their
(SSI) because of a mental impairment      benefits and those of the beneficiaries for whom they served as
who may have been incapable of            representative payees. Further, of the 105 representative payees,
performing their representative payee     we were unable to interview 17. Based on these results, we
responsibilities.                         question the suitability of 39 (37 percent) of the 105 representative
                                          payees and estimate that benefits totaling approximately
Background                                $866,000 may be at risk of misuse or improper use during a 1-year
                                          period.
Some individuals cannot manage or
direct the management of their benefits   In addition, 23 representative payees may no longer have been
because of their youth or mental and/or   medically eligible for disability benefits. If these 23 representative
physical impairments. In selecting a      payees have medically improved and are no longer eligible to
representative payee, the Social          receive benefits, we estimate that benefits totaling over
Security Administration (SSA)             $252,000 will be improperly paid during a 1-year period.
evaluates an applicant’s qualifications
and suitability to serve the              Our Recommendations
beneficiary’s interests.
                                          We recommend SSA:
For this review, we identified
331,388 individuals with a mental         1. Conduct capability and suitability determinations for the
impairment who were serving as               22 representative payees we found may have been incapable of
representative payees for beneficiaries      managing or directing the management of SSA benefits.
whom SSA determined were not
capable of managing their own             2. Contact the 17 representative payees we could not interview to
benefits.                                    determine whether they are capable of managing their own
                                             benefits and those of the beneficiaries they serve.

                                          3. Review the synopsis of our interviews with the
                                             23 representative payees who may no longer have been
                                             medically eligible for disability benefits and determine which
                                             representative payees should have a continuing disability review
                                             conducted.

                                          SSA agreed with Recommendation 1 and partially agreed with
                                          Recommendation 2. SSA stated for four representative payees it
                                          sees no reason to question the individuals’ ability to manage
                                          benefits simply because they declined to participate in our review.
                                          SSA disagreed with Recommendation 3. However, SSA did review
                                          the synopsis of our interviews and concluded it would not conduct
                                          any CDRs. Therefore, SSA satisfied the intent of our
                                          recommendation.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Representative Payees Possibly Incapable.................................................................................4
     Representative Payees Who Declined to Participate or Could Not be Located ........................5
     Representative Payees in Need of a Continuing Disability Review ..........................................6
Conclusions ......................................................................................................................................8
Recommendations ............................................................................................................................8
Agency Comments ...........................................................................................................................8
OIG Response ..................................................................................................................................9
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Interview Guide .................................................................................................. B-1
Appendix C – Description of Mental impairments .................................................................... C-1
Appendix D – Continuing Disability Review History ............................................................... D-1
Appendix E – Agency Comments ...............................................................................................E-1
Appendix F – Major Contributors............................................................................................... F-1




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

CDR                  Continuing Disability Review

DI                   Disability Insurance

MBR                  Master Beneficiary Record

OA                   Office of Audit

OASDI                Old-Age, Survivors and Disability Insurance

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSR                  Supplemental Security Record

U.S.C.               United States Code




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)
OBJECTIVE
The objective of our review was to identify representative payees who were receiving Disability
Insurance (DI) or Supplemental Security Income (SSI) because of a mental impairment who may
have been incapable of performing their representative payee responsibilities.

BACKGROUND
In evaluating adult disability based on a mental disorder, the Social Security Administration
(SSA) requires documentation of a medically determinable impairment(s); consideration of the
degree of limitation such impairment(s) may impose on the individual’s ability to work; and
consideration of whether these limitations have lasted, or are expected to last, for a continuous
period of at least 12 months. 1 SSA considers four broad functional areas when it decides
whether a mental impairment is severe enough to prevent an individual from working:
(1) activities of daily living; (2) social functioning; (3) concentration, persistence, or pace; and
(4) episodes of decompensation. 2, 3

Some individuals cannot manage or direct the management of their benefits because of their
youth or mental and/or physical impairments. For such individuals, SSA conducts a capability
review to determine whether it should select a representative payee to receive and manage the
individual’s benefit payments. 4 A representative payee may be an individual or an organization.
SSA selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI) 5
beneficiaries or SSI 6 recipients when representative payment would serve the individual’s
interests. 7

Prospective representative payees must submit the proper representative payee application. 8 In
selecting a representative payee, SSA evaluates an applicant’s qualifications and suitability to
serve the beneficiary’s interests. SSA generally requires face-to-face interviews with applicants



1
 20 C.F.R. §§ 404.1505 and 416.905. SSA, Disability Evaluation Under Social Security, Blue Book –
September 2008, 12.00 Mental Disorders – Adult, § 12.00 A.
2
    SSA, Disability Evaluation Under Social Security, supra at § 12.00 C.
3
 Episodes of decompensation are exacerbations or temporary increases in symptoms or signs accompanied by a loss
of adaptive functioning. SSA, Disability Evaluation Under Social Security, supra at § 12.00 C.4.
4
 Social Security Act §§ 205(j)(1) and 1631 (a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii)(I). SSA,
POMS, GN 00502.010 (February 25, 2003).
5
 The OASDI program provides benefits to qualified retirement- eligible and disabled workers and their dependents
as well as survivors of insured workers. Social Security Act § 202 et seq., 42 U.S.C. § 402 et seq.
6
 The SSI program provides payments to individuals who have limited income and resources and who are age 65 or
older, blind, or disabled. Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
7
    Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I), 42 U.S.C. §§ 405(j)(1) and 1383 (a)(2)(A)(ii)(I).
8
    SSA, POMS, GN 00502.107 A.1 (October 4, 2010).



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                       1
to evaluate their suitability and explain their duties and responsibilities as representative payees. 9
SSA also reviews the applicant’s Social Security number; verifies their identity and income;
reviews their criminal history; and evaluates any relationship they have with the beneficiary,
custody arrangements, and past performance if they are serving or previously served as a
representative payee. 10

A representative payee’s responsibilities include (1) using the benefits received for the
beneficiary’s current and reasonably foreseeable needs; (2) notifying SSA of any event or change
that will affect the beneficiary’s eligibility or benefit amount; (3) submitting a written report to
SSA, upon request, that accounts for the benefits received; and (4) making all supporting records
available for review, if requested by SSA. 11

As of June 2011, we had identified approximately 6.5 million beneficiaries who had a mental
impairment. 12 Of these 6.5 million beneficiaries, approximately 3 million (46 percent) needed a
representative payee to manage their benefits. In a prior audit, we estimated that over
208,000 (23 percent) of 895,151 mentally impaired beneficiaries who were not assigned a
representative payee may have been incapable of managing or directing the management of their
benefits. 13

For this review, we identified 331,388 individuals who were receiving DI or SSI because of a
mental impairment and who served as a representative payee for beneficiaries whom SSA
determined were not capable of managing benefits. We selected 105 of these representative
payees to interview to obtain insight into their ability to manage their own benefits and the
benefits of those for whom SSA selected them to act as representative payee (see Appendix A). 14
During the interviews, we asked a standard set of questions to observe the representative payee’s
ability to reason and communicate with others (see Appendix B).

These 105 representative payees had a range of mental impairments, the most common being
Affective Disorders followed by Anxiety Related Disorders and Mental Retardation
(see Figure 1). 15



9
    SSA, POMS, GN 00502.113 A. and B. (October 13, 2011).
10
     SSA, POMS, GN 00502.117 (January 31, 2006) and GN 00502.132 (October 28, 2011).
11
     20 C.F.R. §§ 404.2035 and 416.635.
12
     We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI recipients.
13
  SSA OIG, Disabled Individuals with Mental Impairments in Need of a Representative Payee (A-07-11-11110),
September 2012.
14
  We randomly selected 100 representative payees from the population of 69,213 representative payees who resided
within 50 miles of an OIG Office of Audit location. In addition, we selected 5 representative payees from the
population of 12 representative payees who served 10 or more beneficiaries. We selected these five representative
payees based on the representative payee’s relationship to the beneficiaries—relative versus non-relative, and
geographical location. See Appendix A for complete details of the population and sample selection.
15
     See Appendix C for a description of mental impairments.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                             2
              Figure 1: 105 Sampled Representative Payees by Mental Impairment




RESULTS OF REVIEW
Our review of 105 representative payees receiving DI or SSI because of a mental impairment
identified 22 who may have been incapable of managing or directing the management of their
benefits and those of the beneficiaries for whom they served as representative payees. These
22 representative payees managed approximately $37,000 in monthly benefits for themselves
and the beneficiaries in their care.

We were unable to interview 17 of the 105 sampled representative payees. Therefore, we could
not determine whether they were alive or whether there were concerns with their ability to
manage or direct the management of their benefits and those of the beneficiaries for whom they
served as representative payees. Accordingly, the monthly benefits of these representative
payees and beneficiaries may be at risk of misuse or improper use. 16 These 17 representative
payees managed approximately $36,000 in monthly benefits for themselves and the beneficiaries
in their care.

We also identified 23 of the 105 representative payees who may no longer have been medically
eligible for disability benefits. These representative payees received over $21,000 in monthly
benefits for themselves.



16
  According to SSA policy, misuse occurs when the representative payee does not use benefits for the current and
foreseeable needs of the beneficiary, nor conserves remaining benefits for the future needs of the beneficiary.
Improper use occurs when a representative payee allocates benefits for the beneficiary but not in the best interest of
the beneficiary.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                             3
Representative Payees Possibly Incapable
Our review disclosed that 22 of the 105 representative payees in our sample may have been
incapable of managing or directing the management of their benefits and those of the
beneficiaries for whom they served as representative payees. 17 These 22 representative payees
managed $36,536 in monthly benefits for 48 beneficiaries and themselves. 18 Of these
22 individuals, 21 were selected to be a representative payee after they became disabled. These
representative payees had various mental impairments, with the largest number receiving
benefits for an Affective Disorder (see Table 1).

                      Table 1: Number of Representative Payees by Impairment
                                                                                              Interviewed
                                                                          Total
                  Mental                        Total Sampled                                Representative
                                                                       Interviewed
                                                Representative                              Payees Who May
                Impairment 19                                         Representative
                                                   Payees                                      Have Been
                                                                         Payees
                                                                                               Incapable
     Affective Disorders                                54                    44                   10
     Anxiety Related Disorders                          15                    15                    3
     Mental Retardation                                 13                    12                    2
     Schizophrenic/Paranoid/ Other
                                                         9                     8                      2
     Psychotic Disorders
     Organic Mental Disorders                           7                      6                       4
     Personality Disorders                              2                      2                       0
     Substance Addiction                                1                      0                       0
     Somatoform Disorders                               1                      1                       1
     Learning Disorder                                  1                      0                       0
     Borderline Intellectual Functioning                1                      0                       0
     Attention Deficit Disorder                         1                      0                       0
                    Total                              105                    88                      22




17
  Of these 22 representative payees, 9 (41 percent) had another person managing their benefits and the benefits of
those to whom they were assigned to be a representative payee.
18
  In December 2012, the 22 representative payees received $22,192 in their own benefits and the 48 beneficiaries
received $14,344 in benefits.
19
     See Appendix C for a description of mental impairments.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                         4
If these representative payees are, in fact, incapable of managing their benefits and those of
others, we estimate that benefits totaling over $438,000 will be at risk of misuse or improper use
during a 1-year period. 20

For example, one representative payee in our sample managed $1,797 in monthly benefits. 21
Although SSA approved her to serve as the representative payee for a child beneficiary, she had
assistance from her spouse in paying regular monthly bills, did not reconcile her bank statement,
forgot to pay bills, had trouble concentrating, and let the beneficiary pay for things on her own.
Based on this information, we determined the representative payee may have been incapable of
managing her benefits and those of the beneficiary for whom she served as representative payee.

Although SSA had determined these 22 representative payees were capable of managing their
own benefits and suitable to manage the benefits of others, our interviews disclosed they may not
have been capable of managing benefits. 22 Therefore, SSA should conduct capability and
suitability determinations for these 22 representative payees. We will provide SSA with a list of
the 22 representative payees.

Representative Payees Who Declined to Participate or Could Not be
Located
We were unable to interview 17 of the 105 representative payees in our sample.

•      When we attempted to contact five of the representative payees, we spoke to individuals who
       presented themselves as the representative payee. These individuals declined to participate
       in our review. Of these five, two did not want to be bothered, one was afraid of being
       scammed, one was sick, and one stated she no longer managed the beneficiary’s money. 23

•      After several attempts, we were unable to contact 12 representative payees. 24



20
  Annual benefits represent $22,192 in monthly benefits for the representative payee and $14,344 in monthly
benefits for the 48 beneficiaries multiplied by 12 months.
21
     The representative payee received $1,100 for herself and $697 for a child beneficiary.
22
  When an individual applies to be a representative payee, it is SSA’s responsibility to determine who would be best
suited to act as a representative payee for the beneficiaries. SSA performs a face-to face interview, verifies the
representative payee’s identity, and evaluates the applicant using such factors as (1) concern for the beneficiary’s
well-being, (2) ability to handle his/her own affairs, (3) knowledge of the beneficiary’s current and foreseeable
needs, (4) relationship to the beneficiary, (5) history of criminal behavior, and (6) prior misuse of benefits. SSA,
POMS, GN 00502.113 (October 13, 2011) and GN 00502.130.B. (January 31, 2006)
23
  According to SSA’s Representative Payee System, the representative payee, who declined to participate in our
review because she no longer managed the beneficiary’s money, was still assigned to be the beneficiary’s
representative payee.
24
  We attempted to call the representative payees with a valid telephone number at least three times to arrange for an
interview. See Appendix A for a detailed discussion of our scope and methodology.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                        5
We could not determine whether these 17 representative payees were alive since we could not
verify the identities of the 5 who declined to participate, and we could not contact the remaining
12. Further, since we were unable to interview these representative payees, we could not
determine if they were able to manage or direct the management of their own benefits and those
of the 36 beneficiaries for whom they served as representative payees.

If these representative payees are, in fact, incapable of managing their benefits and those of
others, we estimate that benefits totaling over $427,000 will be at risk of misuse or improper use
during a 1-year period. 25

SSA should contact the 17 representative payees we could not interview to determine whether
they are capable of managing their own benefits and those of the beneficiaries they serve. We
will provide SSA with a list of the 17 representative payees.

Representative Payees in Need of a Continuing Disability Review
During our interviews, we identified 23 representative payees who may have no longer been
medically eligible for disability benefits. 26 These representative payees indicated during their
interviews that they had no difficulty paying their bills on time, maintaining a checking or
savings account, or reconciling the statement received from the bank. Further, they stated their
overall health was good, they had seen doctors regularly, and they had no trouble getting along
with others. Examples follow.

•      One individual received a disability benefit for Schizophrenic, Paranoid, and Other Psychotic
       Disorders and served as representative payee for 12 SSA beneficiaries. His non-disabled
       wife served as representative payee for six beneficiaries. In addition, they jointly operated a
       nonprofit business that served as representative payee for one SSA beneficiary. These
       19 SSA beneficiaries lived in 5 houses that were operated through the nonprofit business.
       According to the representative payee, he and his wife were equally responsible for providing
       24-hour care for the beneficiaries, which included shopping, cooking, laundry, and cleaning.
       The representative payee’s disability did not appear to limit his ability to perform the duties
       required in operating the nonprofit business.

•      One individual received a disability benefit for an Affective Disorder and served as
       representative payee and legal guardian for 11 SSA beneficiaries. Although the beneficiaries
       did not live with her, she met with them and their case managers to coordinate their care.
       Further, she monitored their care, paid their bills, and provided a personal needs allowance.
       The representative payee’s impairment did not appear to limit her ability to perform a wide
       range of duties for these beneficiaries. She also stated that her representative payee duties



25
  Annual benefits represent $15,861 in monthly benefits for the representative payees and $19,749 in monthly
benefits for the 36 beneficiaries multiplied by 12 months.
26
     In December 2012, these 23 representative payees received $21,018 in monthly benefits for themselves.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                   6
       were the same as those she previously performed as a program director for an organization
       serving developmentally disabled individuals.

SSA conducts continuing disability reviews (CDR) on DI beneficiaries and SSI recipients to
determine whether they remain medically eligible for disability benefits. Generally, the
frequency of medical CDRs depends on SSA’s assessment of the likelihood of medical
improvement. 27

Of these 23 representative payees, SSA records showed

•      9 had a medical CDR conducted between 13 months and 11 years ago, with 5 being more
       than 3 years ago;

•      6 had a mailer CDR conducted between 19 months and 7 years ago, with 2 being more than
       3 years ago;

•      1 had a work CDR conducted 13 months ago; 28 and

•      7 never had a CDR (see Appendix D for CDR information).

SSA’s systems showed the date that 22 of the 23 representative payees were due for a CDR. 29
However, the CDRs for 11 of the 22 representative payees were between 6 months and 8 years
past their due dates. 30 SSA has determined a CDR is due on 11 of the representative payees
between 6 months and 6 years in the future. For reasons not indicated in the system, SSA had
not performed a CDR or identified a CDR due date for one representative payee.

In December 2012, these 23 representative payees received between $649 and $1,703 in monthly
benefits. If these 23 representative payees have medically improved and are no longer eligible
for disability benefits, we estimate benefits totaling over $252,000 will be improperly paid
during a 1-year period. 31




27
     20 C.F.R. § 404.1590(d) and 20 C.F.R. § 416.990(d).
28
  If a beneficiary is working, SSA will perform a work CDR to investigate work activity and determine whether he
or she is able to engage in substantial gainful activity. SSA, POMS, DI 13010.001 (April 22, 2009). In addition,
beneficiaries who are entitled to DI and/or SSI benefits for at least 24 months will not have a medical CDR triggered
solely because of his/her work activity. SSA, POMS, DI 13010.012 (November 13, 2012).
29
  We reviewed SSA’s Disability Control File and the electronic folder, where applicable, to identify the CDR type,
conducted date, and due date.
30
  According to SSA, limited budget allocations for medical CDRs is partly responsible for SSA’s inability to
conduct CDRs on all cases where medical diaries are overdue. SSA projects at the end of fiscal year 2013 the
backlog will be 1.3 million CDRs.
31
     Annual benefits represent $21,018 in benefits that may be at risk multiplied by 12 months.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                         7
We will provide SSA with a synopsis of our interviews with each of the 23 representative
payees. After reviewing the synopsis, we recommend that SSA determine which representative
payees should have a CDR conducted.

CONCLUSIONS
Based on the results of our audit, we question the suitability of 39 (37 percent) of the
105 representative payees and estimate that benefits totaling approximately $866,000 may be at
risk of misuse or improper use during a 1-year period. Specifically,

•   22 of the 105 mentally impaired representative payees we interviewed may have been
    incapable of managing or directing the management of their benefits and those of the
    beneficiaries for whom they served as representative payee, and

•   17 of the 105 selected representative payees could not be interviewed – 5 declined to
    participate in our review and 12 could not be located.

Also, 23 of the 105 representative payees may no longer be medically eligible for disability
benefits. If these 23 representative payees have medically improved and are no longer eligible to
receive benefits, we estimate that benefits totaling over $252,000 will be improperly paid during
a 1-year period.

RECOMMENDATIONS
We recommend SSA:

1. Conduct capability and suitability determinations for the 22 representative payees we found
   may have been incapable of managing or directing the management of SSA benefits.

2. Contact the 17 representative payees we could not interview to determine whether they are
   capable of managing their own benefits and those of the beneficiaries they serve.

3. Review the synopsis of our interviews with the 23 representative payees who may no longer
   have been medically eligible for disability benefits and determine which representative
   payees should have a CDR conducted.

AGENCY COMMENTS
SSA agreed with Recommendation 1 and partially agreed with Recommendation 2. SSA stated
it plans to contact 13 of the 17 representative payees to verify they are still functioning as
representative payees. For the remaining four representative payees, SSA stated it sees no reason
to question the individuals’ ability to manage their own benefits or those of the beneficiaries they
serve simply because they declined to participate in our review.

SSA stated it disagreed with Recommendation 3. However, SSA did review the synopsis of our
interviews and concluded it would not conduct any CDRs. Therefore, SSA satisfied the intent of


Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)      8
our recommendation, and we consider the actions taken as agreement with our recommendation.
SSA also responded that 11 of the 23 cases are scheduled for future CDRs and without
significant evidence to indicate medical improvement, it cannot justify accelerating the CDRs.
SSA stated that the remaining 12 cases are not yet scheduled for CDRs because they scored
relatively low in the agency’s CDR profiling process. See Appendix E for the Agency’s
comments.

OIG RESPONSE
With regard to Recommendation 2, we continue to believe SSA should contact the four
individuals who declined to participate in our review. Based on prior OIG audits and
investigations, we do not believe it is prudent for SSA to assume these individuals are capable of
managing or directing the management of their benefits and those of the beneficiaries for whom
they serve as representative payee. Given the limited resources it would take for SSA to contact
these four individuals, we would encourage SSA to take advantage of the opportunity to ensure
these individuals are capable.

With regard to Recommendation 3, SSA reviewed the synopsis of our interviews with the
23 representative payees and concluded it would not conduct any CDRs. While SSA’s actions
satisfied the intent of our recommendation, we believe the information we provided should have
led the Agency to conduct CDRs for some of these individuals. For example, one individual
provided 24-hour care for 19 beneficiaries, which included shopping, cooking, laundry, and
cleaning. Given his ability to perform these duties, we question whether his mental impairment
is severe enough to prevent him from working. This individual is 1 of the 11 individuals that
SSA has scheduled for a future CDR. Therefore, as good stewards of SSA’s disability programs,
we would encourage the Agency to consider accelerating the CDRs for at least the 11 individuals
that have future CDRs scheduled to ensure these individuals remain disabled and are entitled to
disability benefits.




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)     9
                                       APPENDICES




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations, the Social Security Administration’s
    (SSA) Program Operations Manual System, and other policy memorandums.

•   Reviewed prior Office of the Inspector General reports.

•   Obtained data extracts from SSA’s Master Beneficiary (MBR) and Supplemental Security
    Records (SSR) of 331,388 individuals who

             o were in current pay, receiving Disability Insurance (DI), Supplemental Security
               Income (SSI), or both DI and SSI concurrently, as of June 2011;

             o were serving as a representative payee as of January 2012; and

             o had a primary diagnosis that indicated they had a mental impairment.

    From this population, we identified:

             o 69,213 representative payees who resided within 50 miles of an Office of Audit
               (OA) location. 1 Of those, we selected a random sample of 100 representative
               payees to interview.

             o 12 representative payees with mental impairments who were serving 10 or more
               beneficiaries. Of those, we selected five representative payees to interview. 2

•   For the 105 selected representative payees, we

             o obtained queries from SSA’s MBR and/or SSR;

             o reviewed LexisNexis to obtain current address information;

             o mailed up to three letters regarding our review; and




1
  We expect that the characteristics of those beneficiaries residing within 50 miles of an OA location do not differ
from those who reside outside 50 miles of an OA location. OA maintains offices in Baltimore, Maryland; Boston,
Massachusetts; New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia; Birmingham, Alabama;
Chicago, Illinois; Arlington, Virginia; Dallas, Texas; Kansas City, Missouri; Denver, Colorado; and Richmond,
California.
2
  We selected these five representative payees based on the representative payee’s relationship to the beneficiaries—
relative versus non-relative and geographical location. The representative payees we selected were in Jackson,
Mississippi; Anderson, Indiana; St. Paul, Minnesota; Dayton, Ohio; and Mound, Minnesota.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                      A-1
             o attempted to interview the representative payees to determine their ability to
               manage or direct the management of their benefits and those of the beneficiaries
               for whom they served as representative payee. 3

Between October 2012 and March 2013, we conducted audit work within 50 miles of Baltimore,
Maryland; Boston, Massachusetts; New York, New York; Philadelphia, Pennsylvania; Atlanta,
Georgia; Birmingham, Alabama; Chicago, Illinois; Arlington, Virginia; Dallas, Texas; Denver,
Colorado; Kansas City, Missouri; and Richmond, California. The entities reviewed were SSA’s
field offices under the Office of Operations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We tested the data obtained for our audit and determined them to
be sufficiently reliable to meet our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




3
 We attempted to call beneficiaries with a valid telephone number at least three times to arrange for an interview.
See Appendix B for the interview questions we asked the representative payees.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                      A-2
Appendix B – INTERVIEW GUIDE
We interviewed 88 of the 105 sampled representative payees to obtain insight into their ability to
manage or direct the management of their own benefits and those of the beneficiaries for whom
they served as representative payees. During the interviews, we asked the questions below to
observe the representative payee’s ability to reason and function with others. 1, 2

We found that 22 (25 percent) of the 88 representative payees we interviewed may have been
incapable of managing or directing the management of their benefits and those of the
beneficiaries for whom they served as representative payee. Our conclusion that a representative
payee may be incapable of managing or directing the management of their own benefits and
those of the beneficiaries for whom they serve as representative payee was based on various
issues disclosed during the interview. Those issues included interview responses that indicated
the representative payee (1) did not remember to pay bills or take medications, (2) had another
person managing the benefits without the Social Security Administration’s (SSA) knowledge and
approval, (3) had overdrawn his/her checking account, (4) did not reconcile bank statements,
(5) had trouble concentrating, and (6) had trouble understanding or following directions.

Questions Asked During Representative Payee Interview
1. Do you live alone? If no,

              a. Who lives with you?

2. Do you have a guardian and/or a conservator? If yes,

              a. What do they do for you?

3. Do you receive help from anyone on determining how to manage your money?

4. Do you pay for things yourself or does someone else pay for them for you?

5. Have you ever forgotten to pay any of your bills? If yes,

              a. How often do you forget to pay your bills?

              b. How did you end up remembering to pay the bills?

6. Do you have a savings account and/or checking account?




1
 The questions we asked the representative payees are similar to the questions SSA asks when performing a
capability determination.
2
    SSA, POMS, GN 00502.050 (September 15, 2011).



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                B-1
            a. Do you write your own checks or does someone else write the checks for you?

            b. Have you ever written a check when you have not had money in the bank? If yes,

                     i. How many times has this happened?

                    ii. Why do you think this happened?

                   iii. What did you do about it when it happened?

7. Do you reconcile the statement from the bank? If no,

            a. Does someone else reconcile the statement from the bank for you?

8.   Do you go to the store to buy groceries or does someone else buy groceries for you?

            a. If yes, how do you get to the store?

            b. If no, does anyone else buy groceries for you?

9. Do you decide what groceries you need to buy? If no,

            a. Who decides for you?

10. Have you ever run out of food or not been provided with enough food? If yes,

            a. Why did this happen?

            b. What did you do about it?

11. How is your overall health?

12. How often do you see a doctor for medical conditions that prevent you from working?

13. Have you ever needed help remembering when to take your medication or how much
    medication to take?

14. What type of work did you do before you became disabled?

15. How did your disability affect your job?

16. How does your disability currently prevent you from working?

17. Do you have trouble

            a. Concentrating?

            b. Understanding or following directions?



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)   B-2
            c. Getting along with people?

18. For the individuals that live with you, do you charge these individuals rent? If yes,

            a. How much rent do you charge each individual?

19. For the individuals that do not live with you:

            a. How often, on average, do you speak with the individuals you are representative
               payee for?

            b. How often, on average, do you visit the individuals you serve?

            c. Describe how you monitor the following areas for each of the individuals living
               outside of your residence:

                     i. Physical condition of the facility/housing

                    ii. Sufficiency of furnishings (such as bedroom, appliances, etc.)

                   iii. Sufficiency of personal items (such as clothing, personal hygiene items,
                        etc.)

                   iv. Utilities in service and properly working (for example, phone service,
                       electric, gas, water)

                    v. Food/Grocery items

                   vi. Special needs (for example, changes in individuals’ conditions may
                       require installing assistance rails or ramps, walk-in tubs, etc.)

20. Do any of the individuals living outside of your home live in a facility or housing that you or
    a relative of yours owns or operates? If yes,

            a. How much is charged for the individual to live there?

21. Do you keep records and maintain documentation (such as receipts, copies of bills, etc.) of all
    payments received and expenses paid for each individual?

22. Do you establish a budget for each individual’s needs, current and anticipated? If no,

            a. How do you ensure each individuals needs are met?

23. Do any of the individuals have unmet needs?

24. Do you reconcile and review the individuals’ bank statements?

25. Do you pay for things for the individuals yourself or does someone else pay for them?


Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)       B-3
26. What do you spend the individuals’ money on?

27. How do you ensure that the individuals’ bills are paid timely?

28. What do you do with any money left after the individuals’ bills are paid?

29. Do you charge the individuals a fee for managing their benefits or any other services you
    provide for them? If yes,

            a. What is the amount or range of the fee charged to the individuals?

30. Do you collect a fee or receive a payment for services from any source other than the
    individuals (for example, court or guardianship fees, fees from a State agency for providing
    services to the individuals)? If yes,

            a. What is the reason for the fee?

            b. What is the amount of the fee?

31. Do you provide each individual with spending money? If yes,

            a. What is the amount provided to each individual?

            b. How frequently do individuals get spending money?

32. For any individuals receiving Supplemental Security Income (SSI), how do you monitor the
    individuals resource limits?

33. For any children receiving SSI, when was the last time the child was seen by a doctor?

34. Do you have difficulty managing your money or the money for the individuals for whom you
    are assigned as representative payee?

35. Do you need any help to carry out the representative payee duties from SSA?

Observations Made During Representative Payee Interviews
During the representative payee interviews, if the beneficiaries in the representative payee’s care
were present, we made observations about (1) the adequacy of the living quarters/housing,
clothing, appearance, and food and medicine and (2) any appearance of neglect or abuse.




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)    B-4
Appendix C – DESCRIPTION OF MENTAL IMPAIRMENTS
The evaluation of disability based on mental disorders requires documentation of a medically
determinable impairment(s), consideration of the degree of limitation such impairment(s) may
impose on the individual’s ability to work, and consideration of whether these limitations have
lasted or are expected to last for a continuous period of at least 12 months. The Social Security
Administration (SSA) classifies mental disorders in the following diagnostic categories. 1

1. Organic mental disorders (impairment code 2940) – symptoms may include, but are not
      limited to, disorientation of time and place, memory impairment, hallucinations or
      delusions, and loss of measured intellectual ability.

2. Schizophrenic, paranoid, and other psychotic disorders (impairment code 2950) –
      characterized by the onset of psychotic features with deterioration from a previous level
      of functioning, which may include persistent delusions or hallucinations, catatonic or
      other grossly disorganized behavior, or incoherence.

3. Affective disorders (impairment code 2960) – characterized by a disturbance of mood,
      accompanied by a full or partial manic or depressive syndrome.

4. Mental retardation (impairment code 3180) – refers to significantly sub-average general
     intellectual functioning with deficits in adaptive functioning initially manifested during
     the developmental period (before age 22). Mental incapacity may be evidenced by
     dependence upon others for basic personal needs (for example, toileting, eating, dressing,
     or bathing) and inability to follow directions.

5. Anxiety-related disorders (impairment code 3000) – anxiety is either the predominant
     disturbance or it is experienced if the individual attempts to master symptoms; for
     example, confronting the dreaded object or situation in a phobic disorder, or resisting the
     obsessions or compulsions in obsessive-compulsive disorders.

6. Somatoform disorders (impairment code 3060) – characterized by physical symptoms for
      which there are no demonstrable organic findings or known physiological mechanisms.

7. Personality disorders (impairment code 3010) – exists when personality traits are
      inflexible and maladaptive and cause either significant impairment in social or
      occupational functioning or subjective distress. Symptoms may include seclusion or
      autistic thinking, or oddities of thought, perception, speech, or behavior.




1
 SSA, Disability Evaluation Under Social Security, Blue Book – September 2008, 12.00 Mental Disorders – Adult,
§§12.02 to 12.10.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)               C-1
8. Substance addiction disorders (impairment code 3030 and 3040) – characterized by
      behavioral or physical changes associated with the regular use of substances that affect
      the central nervous system.

9. Autistic disorder and other pervasive developmental disorders (impairment code 2990)
      – characterized by qualitative deficits in the development of reciprocal social interaction,
      in the development of verbal and nonverbal communication skills, and in imaginative
      activity. Often, there is a markedly restricted repertoire of activities and interests, which
      frequently are stereotyped and repetitive.




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)    C-2
Appendix D – CONTINUING DISABILITY REVIEW HISTORY
    Table D–1: Continuing Disability Review History for Represenative Payees Who May No
                  Longer Remain Medically Eligible for Disability Benefits
                                Type of      Date of Last        Date Next        CDR Cycle in          Monthly
       #     Impairment 1        CDR            CDR              CDR Due            Years 2             Benefit
         1      2950            Medical        5/3/2012            4/1/2019              7                     $930
         2      2960            Medical       2/27/2012            1/1/2015              3                     $953
         3      3010            Medical       2/16/2012            1/1/2015              3                     $776
         4      2960            Medical      10/25/2011            9/1/2018              7                     $698
         5      3000            Medical      10/31/2005            9/1/2012              7                   $1,104
         6      3000            Medical        1/6/2005           12/1/2007              3                     $799
         7      3180            Medical       6/22/2004            6/1/2007              3                     $834
         8      2960            Medical        8/7/2003            8/1/2006              3                     $698
         9      2960            Medical      10/16/2001           10/1/2004              3                     $721
        10      3180            Mailer        8/10/2011            8/1/2014              3                     $740
        11      3000            Mailer         3/9/2011            2/1/2014              3                     $837
        12      2960            Mailer       10/30/2010           10/1/2017              7                     $874
        13      2960            Mailer       10/12/2010           10/1/2013              7                     $698
        14      2960            Mailer        9/17/2009            9/1/2012              3                   $1,703
        15      3180            Mailer        7/26/2006            6/1/2009              3                     $718
        16      2950             Work         2/13/2012           7/1/2009 3             3                     $821
        17      2960             None                             9/28/2015              7                   $1,600
        18      2960             None                              4/1/2014              3                   $1,494
        19      2960             None                              7/1/2013              3                     $698
        20      2960             None                             10/1/2012              3                   $1,120
        21      3000             None                             10/1/2006              *                     $649
        22      2950             None                              5/1/2006              *                     $855
        23      2960             None                                  N/A 4             *                     $698




1
    See Appendix C for a description of the mental impairments.
2
  As denoted by “*”, SSA’s Disability Control File and the electronic folder did not identify the number of years for
the CDR cycle.
3
 The beneficiary was scheduled for a medical CDR in July 2009; however, several work CDRs exempted the
beneficiary from the medical CDR.
4
    SSA’s Disability Control File and the electronic folder did not identify the date the next CDR is due.



Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)                          D-1
Appendix E – AGENCY COMMENTS




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)   E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS ACTING AS
A REPRESENTATIVE PAYEE” (A-07-12-21265)

General Comments

Based on OIG’s findings, it questions “the suitability of 39 (37 percent) of the 105 representative
payees” in its sample and estimates, “benefits totaling approximately $866,000 may be at risk of
misuse or improper use during a 1-year period.” We believe this conclusion is misleading
because these numbers represent 17 representative payees that OIG was unable to interview,
grouped with 22 representative payees it interviewed. OIG’s estimated benefit amount as
possible misuse or improper use is the amount payable to all 39 individuals who receive benefits
and serve as representative payee for another.

The sole fact that certain representative payees did not participate in OIG’s review is not a sound
basis for concluding they may be incapable of managing or directing the management of their
benefits and those of the beneficiaries for whom they serve as representative payee. OIG should
not combine the groups for any type of estimates or statistics. Further, we cannot categorize
actions by a beneficiary as misuse or improper use of benefits with respect to his or her own
benefits.

OIG concluded that, during the interviews with the 22 representative payees, the responses raised
questions about their suitability to serve as representative payee. However, the report should
indicate that OIG did not find any appearance of neglect or abuse among the beneficiaries for
whom the 22 serve as representative payees, and the living quarters/housing, clothing,
appearance, food, and medicine appeared adequate.

Response to Recommendations

Recommendation 1

Conduct capability and suitability determinations for the 22 representative payees we found may
have been incapable of managing or directing the management of SSA benefits.

Response

We agree. We plan to conduct capability and suitability determinations for the 22 representative
payees by the end of calendar year 2013.

We are proactively working with advocate groups to address suitability concerns and to
determine suitability of individuals with mental impairments serving as representative payees.
We will also prepare a Federal Register Notice to obtain public comment.




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)     E-2
Recommendation 2

Contact the 17 representative payees we could not interview to determine whether they are
capable of managing their own benefits and those of the beneficiaries they serve.

Response

We disagree. We plan to contact the one payee mentioned in your report who stated she no
longer managed the beneficiary’s money, and we will appoint a new payee if appropriate. We
also plan to contact the 12 beneficiaries who did respond to your request to verify they are still
functioning as payees. However, we see no reason to question the remaining four representative
payees on their ability to manage their own benefits or those of the beneficiaries they serve
simply because they declined to participate in OIG’s review.

Recommendation 3

Review the synopsis of our interviews with the 23 representative payees who may no longer
have been medically eligible for disability benefits and determine which representative payees
should have a CDR conducted.

Response

We disagree. After our review of the synopsis of the interviews with the 23 beneficiaries, we
concluded it is not necessary to perform Continuing Disability Reviews (CDR) at this time. It is
important to understand that many of our beneficiaries are able to manage their benefits despite
their disabling conditions.

We found 11 of the 23 cases are scheduled for future CDRs. However, with no significant
evidence to indicate medical improvement, we cannot justify accelerating the CDRs. The
remaining 12 cases are not yet scheduled for CDRs because they scored relatively low in our
profiling process.




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)     E-3
Appendix F – MAJOR CONTRIBUTORS
Mark Bailey, Director, Kansas City Audit Division

Shannon Agee, Audit Manager

Kenneth Bennett, Audit Data Specialist

Katherine Muller, Senior Auditor

Karis Crane, Auditor

Brennan Kraje, Statistician




Disabled Individuals with Mental Impairments Acting as Representative Payees (A-07-12-21265)   F-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
